IN THE
SUPREME COURT OF THE UNITED STATES
No. 20-1374
CVS PHARMACY, INC.; CAREMARK, L.L.C.;
AND CAREMARK CALIFORNIA SPECIALTY
PHARMACY, L.L.C.,
Petitioners,
v.
JOHN DOE ONE, JOHN DOE TWO, JOHN DOE
THREE, JOHN DOE FOUR, AND JOHN DOE
FIVE, ON BEHALF OF THEMSELES AND ALL
OTHERS SIMILARLY SITUATED,
Respondents.
On Writ of Certiorari to the
United States Court of Appeals for the Ninth
Circuit

SUGGESTION OF DEATH AND
MOTION FOR SUBSTITUTION
I.

SUGGESTION OF DEATH
Counsel for Respondents hereby give notice of the death of Respondent John Doe Two

on May 25, 2021. The estate of Respondent John Doe Two notified Counsel for Respondents of
the death on July 7, 2021.
II.

MOTION FOR SUBSTITUTION
Supreme Court Rule 35.1 provides, “If a party dies after the filing of a petition for a writ

of certiorari to this Court … the authorized representative of the deceased party may appear and,
on motion, be substituted as a party.” The executor of John Doe Two’s estate is his authorized
1

representative with regard to this litigation and has agreed to become a party to the case. To
preserve the anonymity of John Doe Two, as the courts below did, Respondents propose to refer
to John Doe Two’s authorized representative as Richard Roe. Therefore, Respondents
respectfully request that Richard Roe be substituted for John Doe Two.1

Respectfully submitted,
/s/ Gerald S. Flanagan
Gerald S. Flanagan
Counsel of Record
Daniel L. Sternberg
Benjamin R. Powell
Consumer Watchdog
6330 San Vicente Blvd.
Suite 250
Los Angeles, CA 90043
(310) 392-0522
jerry@consumerwatchdog.org

Alan M. Mansfield
Whatley Kallas LLP
16870 W. Bernardo Dr.
Suite 400
San Diego, CA 92127
Henry C. Quillen
Whatley Kallas LLP
159 Middle St., Suite 2C
Portsmouth, NH 03801

Counsel for Respondents
July 22, 2021

1

Petitioners do not oppose this motion.
2

IN THE
SUPREME COURT OF THE UNITED STATES
No. 20-1374
CVS PHARMACY, INC.; CAREMARK, L.L.C.;
AND CAREMARK CALIFORNIA SPECIALTY
PHARMACY, L.L.C.,
Petitioners,
v.
JOHN DOE ONE, JOHN DOE TWO, JOHN DOE
THREE, JOHN DOE FOUR, AND JOHN DOE
FIVE, ON BEHALF OF THEMSELES AND ALL
OTHERS SIMILARLY SITUATED,
Respondents.
CERTIFICATE OF SERVICE
I, Gerald S. Flanagan, a member of the Bar of this Court and counsel for petitioners, hereby
certify pursuant to Rules 29.3 and 29.5(b) of the Rules of the Supreme Court, that I served the
attached Suggestion of Death and Motion for Substitution, filed this 22nd day of July, 2021, on all
parties required to be served, by causing copies of the document to be sent via email and first class
mail, as indicated below:
Lisa Schiavo Blatt
Counsel of Record
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
lblatt@wc.com
202-434-5050
Counsel for Petitioners
/s/ Gerald S. Flanagan
Gerald S. Flanagan

